                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                December 2011 Update


  Business Loans                                                      The investigation disclosed that he was responsible for
  Two Texas Businesswomen Plead Guilty to Conspiracy                  approximately 15 fraudulent loan transactions involving
  On December 6, 2011, a laundromat owner pled guilty,                both SBA and non-SBA loans while employed by the
  to a superseding information charging her with one count            bank. He made loans to unsuspecting borrowers and
  of conspiracy to commit bank fraud. On December 8,                  diverted the proceeds to his own personal accounts. He
  2011, a commercial property owner also pled guilty to               also drew on customers’ lines of credit to make payments
  conspiracy to commit bank fraud. The owner of the                   on his accounts, loans, and personal credit cards. In
  laundromat received an SBA loan of $1,853,000 to                    addition, the VP issued cashier's checks for his personal
  purchase a laundromat affiliated with the commercial                benefit without reimbursing the bank, and originated
  property owner. She also obtained two commercial loans              fraudulent letters of credit that the institution had to
  totaling $1,332,500 to purchase land from companies                 guarantee, resulting in the loss of approximately
  affiliated with the commercial property owner.                      $451,763 to the bank. This is a joint investigation with
  The investigation disclosed that both women conspired               the Federal Deposit Insurance Corporation (FDIC) OIG
  with others to defraud the SBA and two separate banks               and the FBI.
  by misrepresenting the laundromat owner’s assets, and
  source of equity injection and down payment funds.                   New Jersey Broker Sentenced to 65 Months in Prison
  This is a joint investigation with the Federal Bureau of            On December 20, 2011, a loan broker was sentenced to
  Investigation (FBI).                                                65 months in prison, 36 months probation, a special
                                                                      assessment fee of $300, and ordered to pay restitution of
  Texas Sales Manager Pleads Guilty to Bank Fraud                     $1,134,950. The broker previously pled guilty to an
  On December 12, 2011, a sales manager pled guilty to                information charging him with one count of conspiracy
  one count of bank fraud for knowingly executing a                   to commit bank fraud, one count of possession of
  scheme to defraud and to obtain money from a bank by                unauthorized access devices, and one count of aggravated
  means of false and fraudulent pretenses. The                        identity theft. The investigation revealed that an
  investigation was based on a referral from the FBI and a            organized group of Korean nationals was obtaining credit
  bank, which alleged that the sales manager received loan            cards and loans from multiple lending institutions using
  applications from potential borrowers and then inflated             false identities, documents, and business names. Many
  the income information provided by the applicants before            of the loans were SBA-guaranteed. The broker, one of
  submitting the fraudulent loan applications to various              the leaders of the Korean group, brokered 33 loans
  banks. The investigation determined that there were 26              totaling approximately $1.8 million. Additional loan
  loans or lines of credit where the income information               officers at other banks were also involved in the scheme.
  provided to the banks was not the same as what the                  Current losses on the loans total approximately $1.3
  applicants provided to the sales manager. Of these 26               million. As part of the same case, another member of the
  loans or lines of credit, at least 14 were delinquent or            group pled guilty on December 19, 2011, to a
  defaulted, resulting in a cumulative outstanding balance            superseding information charging him with one count of
  of $530,512. The SBA guaranteed five of the 14                      making false statements and concealing material facts.
  delinquent or defaulted loans.                                      This subject obtained a $100,000 loan from one bank and
                                                                      a $50,000 SBA-guaranteed loan from a second bank
  Former Missouri Bank VP Sentenced for Bank Fraud                    using the identity of another individual and the name of
  On December 14, 2011, the former vice president (VP)                another business. This is a joint investigation with the
  of a Richland, Missouri bank was sentenced to 41 months             Internal Revenue Service – Criminal Investigations
  in prison, 5 years supervised release, and $451,763 in              Division (IRS-CID), the Englewood New Jersey Police
  restitution. He was also barred from holding any position           Department, and the Bergen County Prosecutors’ Office.
  of financial trust without permission. The VP previously
  pled guilty to one count of bank fraud on July 22, 2011.


Monthly Update on Activities of the SBA Office of Inspector General
Disaster Loans                                                        and a $100 special assessment fee. In addition, the
Mississippi Man Sentenced for Theft of Public Funds                   owner was ordered to cooperate with his removal from
On December 5, 2011, a Mississippi man was sentenced                  the United States and to comply with a denaturalization
to 12 months probation, 6 months home confinement, a                  order. The subject had previously pled guilty to one
$2,500 fine, and a $100 special assessment fee, as a                  count of procurement of citizenship or naturalization
result of his guilty plea to one count of theft of public             unlawfully and one count of false statements. His
funds. The investigation revealed that during the loan                business, an 8(a) certified firm, has received over $3
approval process, the subject misrepresented the location             million in contracts set aside for 8(a) certified businesses.
of his primary residence, which he claimed had been                   The investigation disclosed that he obtained falsified
damaged by Hurricane Katrina. He also made the same                   U.S. citizenship documents from a DHS employee and
claims when completing similar applications for Federal               used the documents to obtain a Department of Defense
Emergency Management Agency and Mississippi                           (DoD) security clearance. These same documents also
Development Authority grant benefits. The subject was                 supported his claim of US citizenship on the firm’s 8(a)
approved for a $144,900 SBA disaster home loan, of                    application. This is a joint investigation with the DHS
which $121,300 was disbursed. As a result of this                     OIG; DHS - Immigration and Customs Enforcement;
investigation, the subject repaid the remaining balance of            Department of State - Diplomatic Security Service, and
his SBA loan. This is a joint investigation with the                  the Department of Labor (DOL) OIG.
Housing and Urban Development (HUD) OIG,
Department of Homeland Security (DHS) OIG, and the                    Former Chief Technology Officer Pleads Guilty to
Mississippi Office of the State Auditor.                              Conspiracy and Bribery of a Public Official
                                                                      On December 19, 2011, the case against a chief
Houston Couple Involved in SBA Disaster Loan Fraud                    technology officer was unsealed in U.S. District Court
On December 12, 2011, an assistant medical examiner                   for the District of Columbia. On September 20, 2011,
was indicted in Harris County, Texas, District Court.                 the subject pled guilty to an information charging him
The woman was charged with making false statements to                 with conspiracy and bribery of a public official. The
obtain property or credit, a first-degree felony, and was             investigation revealed that the chief technology officer
suspended from her duties as a Harris County assistant                — and others — attempted to steer a major U.S. Army
medical examiner. On December 16, 2011, her husband,                  Corps of Engineers contract to their firm by paying or
a real estate broker and Houston area bank director, pled             receiving bribes or kickbacks, fraudulently inflating
guilty in US District Court to one count each of                      orders to their firm and submitting false information to
conspiracy and fraud in connection to a major disaster.               the SBA, the Government Services Administration
The couple received two SBA disaster loans totaling                   (GSA), and other federal agencies. This is a joint
$999,700 to repair more than 40 rental properties                     investigation with the FBI, the Army Criminal
damaged by Hurricane Ike. During the loan approval                    Investigations Division (CID), the IRS, the Defense
process, SBA Processing and Disbursement Center                       Criminal Investigative Service (DCIS), the DOL OIG,
(PDC) staff identified a rental property that the wife                the GSA OIG, and the Veteran’s Administration OIG.
claimed as her primary residence. The investigation
alleges that she made several material false statements in            Agency Management
her mortgage loan application. The investigation also                 SBA Needs to Update the Goaling Guidelines for the
disclosed that the husband was involved in a fraudulent               Small Business Preference Programs
invoice scheme with employees, relatives, and                         On December 6, 2011, the OIG issued a report regarding
contractors in which he submitted inflated and false                  an issue discovered during an audit of the reliability of
invoices for repairs to his residence and rental properties.          the SBA’s Small Business Goaling Report. During this
He also claimed that Hurricane Ike had damaged a rental               audit, the OIG found that the SBA has not updated the
property; however, the investigation determined that the              Goaling Guidelines for the Small Business Preference
property had actually been damaged by an intentional                  Programs. These guidelines provide policy direction to
fire. This case was the result of a referral by the PDC.              federal agencies pertaining to the establishment of annual
This is a joint investigation with the DHS OIG.                       small business goals and the reporting of procurement
                                                                      activity. Specifically, the OIG found that the SBA has
Government Contracting & Business                                     not clearly documented its rationale for excluding certain
                                                                      types of contracts from its annual small business
Development
                                                                      procurement calculations. As a result, procurement
Owner of Virginia Technology Firm Sentenced
                                                                      actions may be inappropriately excluded from small
On December 2, 2011, the owner of a technology firm
                                                                      business goaling calculations.
was sentenced to two years probation, a $20,000 fine,



Update on the Activities of the SBA Office of Inspector General   2                                         October 2011
Audit of SBA’s Fiscal Year (FY) 2011 Financial
Statements – Management Letter Issued                                     Peggy E. Gustafson, Inspector General
Pursuant to the Chief Financial Officer’s Act of 1990,
KPMG LLP performed an audit of SBA’s FY 2011                          If you are aware of suspected waste, fraud, or abuse
financial statements under a contract with the OIG. The               in any SBA program, please report it online at
independent auditor’s report was issued on November 14,               http://www.sba.gov/office-of-inspector-
2011. On December 15, 2011, KPMG issued a                             general/2662
Management Letter with seven recommendations to
address issues regarding internal control and other                   Or call the OIG Hotline toll-free, at (800) 767-0385
operational matters that were noted during the audit but
were not considered reportable. Specifically, KMPG                    The OIG has established an e-mail address,
found that the SBA did not comply with the Debt                       oig@sba.gov that we encourage the public to use to
Collection Improvement Act when it failed to refer at                 communicate with our office. We welcome your
least 504 delinquent Disaster Assistance program loans                comments concerning this update or other OIG
to the U.S. Department of Treasury for cross-servicing                publications. To obtain copies of these documents
and offset at time of charge-off. Further, the SBA failed             please contact:
to refer 5,000 eligible co-borrowers and guarantors to the
Treasury for cross-servicing and offset on Disaster                                       SBA OIG
Assistance, 504/CDC, and 7(a) loans with at least $226                          409 Third Street SW, 7th Floor
million in outstanding unpaid principal balance. The                               Washington, DC 20416
SBA’s management concurred with the findings and                                    E-mail: oig@sba.gov
recommendations.                                                              Telephone number (202) 205-6586
                                                                                FAX number (202) 205-7382

                                                                      Many OIG reports can be found on the OIG’s
                                                                      website
                                                                      http://www.sba.gov/office-of-inspector-general




Update on the Activities of the SBA Office of Inspector General   3                                       October 2011
